                U.S. Department of Agriculture

                   Office of Inspector General
                             Southeast Region




      Audit Report

    Farm Service Agency
Peanut Quota Buyout Program




                     Report No. 03099-166-AT
                                 August 2003
Executive Summary
Farm Service Agency Peanut Quota Buyout Program (Audit Report No. 03099-166-AT)

Results in Brief   This report presents the results of our review of the Farm Service Agency
                   (FSA) Peanut Quota Buyout Program (QBOP). The objective was to
                   evaluate FSA’s controls for ensuring QBOP payments were made to eligible
                   quota holders. An eligible quota holder is a party who owned a farm or tract
                   as of May 13, 2002, that had a 2001 quota.

                   QBOP eliminated peanut quotas and provided compensation to quota holders
                   for their loss of asset value. For the 16 States with peanut quotas, the
                   program payments were expected to be approximately $1.3 billion. QBOP
                   payments for the States we reviewed, Georgia and Florida, were $535 million
                   and $55 million respectively. We selected the two largest payment counties
                   in each State for review. The payments in the four counties totaled about
                   $96.3 million.

                   Because FSA records may not have been updated to reflect changes in
                   ownership, QBOP procedures allowed payments to new owners only if the
                   sale or transfer agreements were executed prior to May 13, 2002. At the
                   4 service centers selected for review, we identified 1,365 payments totaling
                   about $9 million made to parties other than the owners of record reflected in
                   FSA’s automated farm records maintenance system as of May 13, 2002,
                   (“owners of record”). Our review of 102 of these payments totaling about
                   $4.5 million found they were generally made to eligible quota holders in
                   conformance with program requirements. However, we did find the
                   following:

                    •   One service center generally did not obtain sufficient documentation to
                        support payments to parties other than the owners of record. The service
                        center made 184 payments totaling about $1.4 million to the other
                        parties.

                    •   Of the 102 payments tested, we questioned 4 payments totaling
                        $152,535, made by 3 service centers, because the payees could not
                        provide sufficient proof of ownership.

                    A summary of monetary results is provided in exhibit A.

Recommendations
In Brief           We recommend the FSA National Office to instruct (1) State offices (SO) to
                   require county offices to review and certify that they have adequate
                   documentation that QBOP payees were eligible quota holders, (2) the Florida
                   SO to require the Santa Rosa County Service Center to obtain documentation
                   sufficient to support payments to parties other than the owners of record, and

USDA/OIG-A/03099-166-AT                                                                   Page i
                   (3) the Georgia and Florida SO's to refer the four questioned payments to the
                   Deputy Administrator of Farm Programs, through the SO, for determinations
                   of eligibility.

Agency Response    In its July 25, 2003, written response to the draft report, FSA agreed with the
                   recommendations and stated its proposed actions for implementing them.

OIG Position       We agree with the proposed actions and can achieve management decision on
                   the recommendations once we receive a timeframe for completing the
                   actions.




USDA/OIG-A/03099-166-AT                                                                    Page ii
Table of Contents
Executive Summary .................................................................................. Error! Bookmark not defined.
Background and Objectives ................................................................................................................... 1
Findings and Recommendations............................................................................................................ 3

    Section 1. Transfers of Ownership .................................................................................................. 3

        Finding 1            One Service Center Did Not Obtain Documentation to Support Changes in
                             Ownership ............................................................................................................... 3
                                 Recommendation No. 1.................................................................................... 4
                                 Recommendation No. 2.................................................................................... 5
        Finding 2            Payees Could Not Provide Proof of Ownership...................................................... 5
                                 Recommendation No. 3.................................................................................... 6
Scope and Methodology.......................................................................................................................... 8
Exhibit A – Summary of Monetary Results ......................................................................................... 9
Exhibit B – Universe and Sample Data for Counties Visited ........................................................... 10
Exhibit C – Exception Narrative ......................................................................................................... 11
Exhibit D – Agency Response .............................................................................................................. 14




USDA/OIG-A/03099-166-AT                                                                                                                     Page iii
Background and Objectives
Background                      The Farm Security and Rural Investment Act of 2002 (2002 Farm Bill),
                                included a provision to repeal the market quota system for peanuts. The
                                quota system was replaced with a system of direct and counter-cyclical
                                payments (DCP) and non-recourse loans with marketing loan provisions
                                similar to other commodities such as corn, soybeans, and cotton.

                                The 2002 Farm Bill1 included a provision to compensate peanut quota
                                holders for loss of their quota asset value. The Peanut Quota Buyout
                                Program (QBOP) is a one-time program for eligible quota holders who
                                contract with the U.S. Department of Agriculture to receive compensation for
                                the loss of quota at the rate of $0.11 per pound annually for 5 years or a
                                lump-sum payment of $0.55 per pound. The determination of the peanut
                                poundage amount for a qualified person was based on the 2001 crop quota
                                levels, taking into account sales of the farm that occurred before the
                                (May 13, 2002) date of enactment of the 2002 Farm Bill and any permanent
                                transfers of quota that took place before that date.

                                The national peanut quota for 2001 was 2,354,100,000 pounds that would
                                equate to a maximum QBOP payout of $1,294,755,000. (See table 1.)

                                Table 1
                                                                 Quota        Percent of
                                          State                 Pounds          Total            Amount
                                  Georgia                       972,036,751        41.29        $534,620,213
                                  Alabama                       316,516,843        13.45          174,084,264
                                  Texas                         310,347,830        13.18          170,691,307
                                  North Carolina                260,178,192        11.05          143,098,006
                                  Virginia                      186,341,375         7.92          102,487,756
                                  Oklahoma                      157,197,688         6.68           86,458,728
                                  Florida                       100,642,483         4.28           55,353,366
                                  South Carolina                 17,307,885           .74           9,519,337
                                  New Mexico                     13,670,117           .58           7,518,564
                                  Mississippi                     8,940,048           .38           4,917,026
                                  Arkansas                        4,904,273           .21           2,697,350
                                  Louisiana                       2,152,354           .09           1,183,795
                                  Arizona                         1,471,501           .06             809,326
                                  California                      1,023,869           .04             563,128
                                  Tennessee                       1,007,272           .04             554,000
                                  Missouri                          361,519           .02             198,835
                                  Subtotal                    2,354,100,000       100.00    $   1,294,755,000
                                  Reserve                         5,900,000
                                  Total                       2,360,000,000



1
    2002 Farm Bill, section 1309(f)(6), dated May 13, 2002.
USDA/OIG-A/03099-166-AT                                                                                   Page 1
                           To identify eligible quota holders entitled to QBOP payments, Farm Service
                           Agency (FSA) service centers were required to run a report on
                           August 27, 2002, which showed parties who owned a farm or tract, as of
                           May 13, 2002, that had a 2001 peanut quota (“owners of record”). The report
                           was generated from the agency's 2001 farm ownership file. Because FSA
                           files may not have been updated to reflect changes in ownership, QBOP
                           procedures2 allowed for payments to new owners only if the sale or transfer
                           agreements were executed prior to May 13, 2002. All sales and transfers of
                           ownership prior to May 13, 2002, were accepted if they were (1) in writing
                           and (2) signed by all parties involved in the sale/transfer. Transfers/sales
                           after May 13, 2002, were not allowed for payment purposes.

                           In the cases of death, the estate beneficiaries were eligible for the payments.
                           FSA required documentation for estate beneficiaries including identification
                           and signatures of all beneficiaries and acknowledgement of consequences for
                           improper/fraudulent representations.3,4

Objectives                 The review objective was to determine if FSA's controls were adequate to
                           ensure QBOP recipients were eligible quota holders.




2
  FSA Handbook, "1 DCP," amendment 1, paragraph 526C, dated September 26, 2002.
3
  FSA Handbook, "1 DCP," amendment 1, paragraph 526D, dated September 26, 2002.
4
  FSA Notice, "DCP 26," part 6a, exhibit 2, dated August 30, 2000.
USDA/OIG-A/03099-166-AT                                                                            Page 2
Findings and Recommendations
Section 1. Transfers of Ownership

                    We visited 4 FSA service centers in Georgia and Florida and reviewed 102 of
                    the 1,365 QBOP payments these centers made to payees other than the
                    owners of record. Our sample represented $4,485,250 million (51 percent) of
                    the $8,781,007 payments the 4 service centers made to the 1,365 payees. Our
                    review disclosed the following:

                    •   One service center generally did not obtain sufficient documentation to
                        support payments to parties other than the owners of record. The service
                        center made 184 payments totaling $1,379,710 to the other parties.

                    •   Of the 102 payments tested, we questioned 4 payments totaling
                        $152,535 made by 3 service centers because the payees could not provide
                        sufficient proof of ownership.



Finding 1           One Service Center Did Not Obtain Documentation to Support
                    Changes in Ownership

                    One of the four service centers we visited generally had not obtained
                    documentation to support that QBOP payees, other than the owners of record,
                    were eligible quota holders. The Florida Santa Rosa County FSA Service
                    Center staff generally did not obtain deeds, probated wills, or signed
                    agreements to support changes in the owners of record. Therefore, there
                    were no assurances that the payees were the eligible quota holders and
                    entitled to the payments. The service center director stated that he was not
                    aware of the ownership documentation requirement because changes to the
                    FSA Handbook, "1-DCP," applicable to QBOP, were not received until
                    sometime after quota holders applied for payments. The service center made
                    184 payments totaling $1,379,710 to payees other than the owners of record.

                    FSA Headquarters officials stated that guidance was provided to service
                    centers prior to beginning signups on September 2, 2002. FSA Notice DCP-
                    23, dated August 19, 2002, provided specific documentation requirements for
                    changes in ownership through sales, contract for purchase of quota, life
                    estates, deaths and estates, and dissolved entities.

                    FSA farm ownership records were to be updated when the new quota holders
                    applied for QBOP payments. At that time, the applicants were to provide



USDA/OIG-A/03099-166-AT                                                                  Page 3
                              proof of ownership in order to receive payments. FSA program rules5
                              defined proof as written contract, written agreement, verbal agreement with a
                              signed certification by all parties, legal documentation demonstrating the
                              estate division or method, or a written agreement signed by all heirs.

                              To identify payments to parties other than the owners of record, we asked
                              each service center to generate a list of QBOP payees and compared the list
                              to the report of owners of record run by the service center on
                              August 27, 2002. The August 27, 2002, report of the owners of record was
                              extracted from the agency's farm ownership file.

                              At the 4 service centers we visited, we identified 1,365 payments totaling
                              $8,781,007 made to parties other than the owners of record. (See exhibit B.)
                              The differences generally occurred because the new owners had not reported
                              the acquisition of the farms or quotas, occurring prior to May 13, 2002, to the
                              service centers. The changes were attributed to (1) farm and quota sales;
                              (2) inheritances and estate settlements; and (3) corrections of producer
                              names, producer classifications (e.g., person vs. estate), and producer shares.

                              The Santa Rosa County Florida Service Center made 184 payments totaling
                              $1,379,710 to payees who were not listed as the owners of record. We
                              sampled 18 of the largest payments totaling $757,315 and found that the
                              center had not obtained documentation to support 14 payments totaling
                              $664,495. The service center had not required applicants to submit
                              documentation, such as deeds or quota transfer forms, to show that they were
                              eligible quota holders. FSA’s farm ownership records were to be updated
                              when the new owners applied for QBOP payments. At that time, the
                              applicants (new owners) were to provide proof of ownership in order to
                              receive the payments.

                              During our visit, the service center staff was able to obtain from the
                              courthouse or payees documentation to support 13 of the 14 payments
                              totaling $602,080. For the remaining payment of $62,415, the deed and will
                              obtained did not clearly delineate the owner(s) of the property or the peanut
                              quota and was not sufficient to determine the payee was entitled to the
                              payment. (See finding no. 2 and exhibit C for details.)

Recommendation No. 1

                              Instruct States participating in QBOP to require county offices to review and
                              certify that they have adequate documentation to support payments to payees
                              other than those shown on the August 27, 2002, report.




5
    FSA Handbook, "1 DCP," amendment 1, paragraph 526C, and 526F, dated September 26, 2002.
USDA/OIG-A/03099-166-AT                                                                               Page 4
                   Agency Response. In its July 25, 2003, response, FSA stated,

                          FSA will instruct State offices that participated in QBOP to
                          require county offices to review a sample of payees who were
                          not shown on the August 27, 2002, report to determine if
                          supporting documentation was obtained. The method to be
                          used to pull the sample will be the same as used by OIG.
                          Once county offices have certified to State offices, we will
                          have each State office certify to this office.

                   OIG Position. We agree with the proposed actions. However, to achieve
                   management decision, we need timeframes for completing them.

Recommendation No. 2

                   For the remaining 166 cases (184-18=166) in which the Santa Rosa County
                   FSA Service Center issued QBOP payments to payees who were not listed on
                   the August 27, 2002, printout, instruct the Florida State office (SO) to require
                   the service center to obtain documentation to support the eligibility of such
                   payees.

                   Agency Response. In its July 25, 2003, response, FSA stated, "FSA will
                   notify the Florida State Office that the Santa Rosa County FSA Office is to
                   review and certify that they have obtained documentation to support the
                   remaining 166 cases that OIG did not review, due to the number of cases that
                   did not have supporting documentation."

                   OIG Position. We agree with the proposed action. However, to achieve
                   management decision, we need timeframes for completion.




Finding 2          Payees Could Not Provide Proof of Ownership

                   Four of the 102 payments that we reviewed were made to individuals who
                   could not provide support that they were eligible quota holders authorized to
                   receive the payments. The four payments, made by three service centers,
                   totaled $152,535.     In one case the service center did not require
                   documentation to support the eligibility of the individual before making the
                   payment and in the other three cases the service center staffs did not
                   adequately evaluate the documentation to determine the applicant's
                   entitlement to the payments.



USDA/OIG-A/03099-166-AT                                                                     Page 5
                              FSA program rules6 define an eligible quota holder as an individual, joint
                              operation, or entity who owned a farm or tract before May 13, 2002, which
                              had a 2001 basic quota. A person who holds a life estate in the farm or tract
                              of a farm that has a peanut quota is the eligible owner. Program rules also
                              provide for recognition of permanent transfers of quotas if there was an
                              agreement by all parties prior to May 13, 2002. All parties must sign a
                              certification for the transfer to be valid. In the event the quota holder is
                              deceased, legal documentation must be provided demonstrating the estate
                              division method (typically a probated will) or a written agreement signed by
                              all heirs showing each prorated share in the deceased's quota.

                              If situations occur where the eligible quota holder cannot be determined, the
                              service centers shall refer the payments to the Deputy Administrator of Farm
                              Programs (DAFP), through the SO, for a determination.7

                              Payments totaling $152,535 made to four individuals, were not supported.

                              •       Two payments totaling $50,070 were made to two brothers rather than
                                      their mother who held a life estate in the farm. She was incapacitated
                                      due to health problems and was unable to enter into the QBOP
                                      contract.

                              •       One payment of $40,050 was not supported by a quota transfer/sales
                                      document.

                              •       One payment of $62,415 was made although the deeds and wills
                                      provided for the property did not clearly delineate the owner(s) of the
                                      property or the quota.

                              The FSA county service center staffs agreed that the payments should have
                              been referred to DAFP for eligibility determinations and/or sufficient
                              documentation obtained to support the entitlement of the payees.

                              Exhibit C contains additional details of the four payments.

Recommendation No. 3

                              Instruct the Georgia and Florida SO's to refer the four cases to DAFP for a
                              determination of the payees' eligibility. If the payees are determined
                              ineligible, take appropriate recovery action.




6
    FSA Handbook, "1 DCP," amendment 1, 526A, 526C, and 526H, dated September 26, 2002.
7
    FSA Handbook, "1 DCP," amendment 1, 526D, dated September 26, 2002.
USDA/OIG-A/03099-166-AT                                                                               Page 6
                   Agency Response. In its July 25, 2003, response, FSA stated, "FSA will
                   instruct the Georgia and Florida State Offices to refer the cases, as
                   recommended by OIG, to this office for a determination of eligibility of
                   payees for QBOP payments."

                   OIG Position. We agree with the proposed action. However, to achieve a
                   management decision, we need (1) a timeframe for completing the eligibility
                   determinations and (2) if improper payments are determined, copies of the
                   billings to recover the payments.




USDA/OIG-A/03099-166-AT                                                                Page 7
Scope and Methodology
                   The review was performed in accordance with generally accepted
                   government auditing standards and covered the period May 2002 through
                   March 2003.

                   Work was performed at the FSA National Office in Washington, D.C., and
                   four FSA service centers that served the two largest peanut producing
                   counties in each of Georgia and Florida.

                   Projected QBOP payments in Georgia and Florida were $590 million of the
                   $1.3 billion projected payments nationwide. Records at the 4 service centers
                   we visited showed that there were 4,663 owners of record eligible for
                   payments totaling $96,269,314 (see exhibit B).              We identified
                   1,365 payments totaling $8,781,007 that the 4 centers made to payees other
                   than the owners of record. We reviewed 102 of the 1,365 payments. The
                   102 payments represented the largest payments at each center and totaled
                   $4,485,250 (51 percent) of the $8,781,007.

                   To accomplish the review objectives, we performed the following steps:

                   •      Reviewed applicable laws, regulations, and guidance for QBOP;

                   •      Reviewed FSA policies, procedures, and administrative controls for
                          QBOP;

                   •      Interviewed officials at FSA headquarters and county service centers;

                   •      Compared county QBOP payee reports to county lists of the owners
                          of record to identify payments to producers other than the owners of
                          record;

                   •      Selected the two largest QBOP payment centers in both Georgia and
                          Florida for review;

                   •      Judgmentally selected the largest mismatched QBOP payments at the
                          4 centers (102 QBOP payments selected);

                   •      Interviewed QBOP payment recipients;

                   •      Reviewed QBOP payment file documentation to support transfers;
                          and

                   •      Visited the county courthouses to review farm ownership records.



USDA/OIG-A/03099-166-AT                                                                  Page 8
Exhibit A – Summary of Monetary Results
                                                                      Exhibit A – Page 1 of 1



Finding   Recommendation
  No.          No.                Description          Amount
                                                                    Unsupported Cost,
   2            3          Unsupported QBOP payments   $152,535   Recovery Recommended




USDA/OIG-A/03099-166-AT                                                             Page 9
Exhibit B – Universe and Sample Data for Counties Visited
                                                                                      Exhibit B – Page 1 of 1



      EARLY COUNTY, GEORGIA                              No. of Producers     ENTITLEMENT
      Owners of Record ¹                                             1,012          $31,943,904
      Payments to Parties Other Than
      Owners of Record                                                  388          $3,310,815
      No. Reviewed                                                       35          $1,812,140
      No. of Exceptions                                       No Exceptions                N/A
      WORTH COUNTY, GEORGIA                              No. of Producers     ENTITLEMENT
      Owners of Record ¹                                             1,196          $31,899,265
      Payments to Parties Other Than
      Owners of Record                                                  283          $1,859,323
      No. Reviewed                                                       25          $1,000,323
      No. of Exceptions                                                   2             $50,070
      SANTA ROSA COUNTY, FLORIDA                         No. of Producers     ENTITLEMENT
      Owners of Record ¹                                                665          $6,926,765
      Payments to Parties Other Than
      Owners of Record                                                  184          $1,379,710
      No. Reviewed                                                       18            $757,315
      No. of Exceptions                                                   1             $62,415
      JACKSON COUNTY, FLORIDA                            No. of Producers     ENTITLEMENT
      Owners of Record ¹                                             1,790          $25,499,380
      Payments to Parties Other Than
      Owners of Record                                                  510          $2,231,159
      No. Reviewed                                                       24            $915,472
      No. of Exceptions                                                   1             $40,050
      REVIEW TOTALS                                      No. of Producers     ENTITLEMENT
      Owners of Record ¹                                             4,663          $96,269,314
      Payments to Parties Other Than
      Owners of Record                                               1,365            $8,781,007
      No. Reviewed                                                      102           $4,485,250
      No. of Exceptions                                                   4             $152,535
     ¹Owners of record as recorded in FSA files as of May 13, 2002.




USDA/OIG-A/03099-166-AT                                                                            Page 10
Exhibit C – Exception Narrative
                                                                             Exhibit C – Page 1 of 3

                   Worth County, Georgia -- Two payments were made to brothers whose
                   mother had a life estate in the farm. The mother’s quota was 91,029 pounds
                   that resulted in a $50,070 lump-sum payment. FSA Handbook, "1 DCP,"
                   amendment 1, paragraph 526H, dated September 26, 2002, provides, “A
                   person, who holds a life estate in a farm or tract that has a peanut quota
                   attached, is the eligible quota holder.” Due to severe health problems, the
                   mother was without the capacity to enter into the QBOP contract; thus, the
                   sons applied for and split the $50,070 QBOP payment. The brothers told us
                   that a power of attorney had not been executed. They contended that the
                   farm assets were theirs including the buildings, timber rights, and peanut
                   quota. The sons had deeded the property to their mother at the time of their
                   father’s death with the understanding that she would receive the cash rent
                   from the land. The FSA service center should have sent this case to the SO
                   for referral to DAFP for a determination as to the proper payee. FSA service
                   center officials agreed that the payments should have been referred for a
                   determination.

                   Santa Rosa County, Florida -- One payment of $62,415 for 113,481 pounds
                   made to an heir of an estate was not supported. The owner of record was
                   deceased. FSA Handbook, "1 DCP," amendment 1, paragraph 526E, dated
                   September 26, 2002, provides,

                          If the eligible quota holder died before entering into a
                          contract for QBOP, the estate is the eligible quota holder. If
                          there is no estate, the eligible quota pounds will be divided
                          according to the following:

                          •   the method the estate was divided
                          •   if an estate was not formed, then all heirs of the estate
                              must agree in writing on the division of quota pounds

                          Legal documentation must be provided demonstrating either
                          of the following:

                          •   the estate division method
                          •   a written agreement signed by all heirs reflecting the
                              subject heirs associated with the deceased producer’s
                              interest and division of pounds.

                   The service center had not obtained documentation such as a deed and will to
                   support that the payee was entitled to the payment. At our request, the payee

USDA/OIG-A/03099-166-AT                                                                   Page 11
Exhibit C – Exception Narrative
                                                                             Exhibit C – Page 2 of 3

                   provided a deed and will for the property. They showed that (1) the property
                   was part of an estate and (2) the payee was one of several heirs associated
                   with the estate. The documentation provided did not define the method by
                   which the estate was divided, which heir survived which heir, or in which
                   order the property and peanut quota passed to the heirs. This case should
                   have been referred via the SO to DAFP for a determination as to which
                   individuals were entitled to the payment. FSA service center officials agreed
                   that the payment should have been referred for a determination.

                   Jackson County, Florida -- One payment of $40,050 for 72,815 pounds
                   was made to a farm operator without a properly executed transfer.
                   FSA Handbook, "1 DCP," amendment 1, paragraph 526C, dated
                   September 26, 2002, provides,

                          If an agreement for the permanent transfer of quota was in
                          effect before May 13, 2002, the QBOP payment will be
                          disbursed according to the agreement. The agreement shall
                          contain a certification from the previous quota holder stating
                          that they will not file a request for QBOP payments on
                          poundage represented in the agreement. The agreement must
                          be 1 of the following:

                          •   FSA-375 (peanuts),
                          •   written contract,
                          •   written agreement, or
                          •   verbal agreement.

                          *      *       *      *       *      *      *       *        *

                          For a verbal agreement, the parties involved must submit to
                          the [county committee] a certification, which must include the
                          date of the agreement, pounds agreed upon, and associated
                          farm numbers. All parties must sign the certification for it to
                          be considered valid. Verbal agreements without a signed
                          certification will not be considered.

                   The operator was the son/relative of the four owners (all related family
                   members) who each owned one of four tracts that were entitled to a payment.
                   The operator stated that he had purchased the peanut quota several years ago
                   and placed it on the family farm’s four tracts. The QBOP file contained a
                   statement from the operator’s mother that the operator had placed the quota
                   on the farm; however, the document did not conform to FSA's procedures for

USDA/OIG-A/03099-166-AT                                                                    Page 12
Exhibit C – Exception Narrative
                                                                            Exhibit C – Page 3 of 3

                   transfer/sale of quota because all owners did not sign the statement. After
                   reviewing the deeds, we determined the following relatives of the operator
                   owned the 4 tracts with following quota allocations (1) his mother owned
                   1 tract with 22,159 pounds of quota, (2) his aunt owned 1 tract with
                   30,321 pounds of quota, (3) his grandmother owned 1 tract with
                   14,824 pounds of quota, and (4) his uncle owned 1 tract with 5,511 pounds of
                   quota.

                   The owners were entitled to the payment unless the operator could provide
                   documentation that before May 13, 2002, he owned or had entered into an
                   agreement to purchase the farmland with the quota on it, or he had an
                   agreement to transfer the quota to other farmland he owned. FSA officials
                   agreed that the payment was not supported by the required documentation for
                   a transfer/sale of quota.




USDA/OIG-A/03099-166-AT                                                                  Page 13
Exhibit D – Agency Response
                              Exhibit D – Page 1 of 3




USDA/OIG-A/03099-166-AT                    Page 14
Exhibit D – Agency Response
                              Exhibit D – Page 2 of 3




USDA/OIG-A/03099-166-AT                    Page 15
Exhibit D – Agency Response
                              Exhibit D – Page 3 of 3




USDA/OIG-A/03099-166-AT                    Page 16
